<html>
<title> - NOMINATION OF ELAINE C. DUKE</title>
<body><pre>[Senate Hearing 110-946]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-946
 
                      NOMINATION OF ELAINE C. DUKE 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF ELAINE C. DUKE TO BE UNDER SECRETARY FOR MANAGEMENT, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                             JUNE 20, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-119 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk




















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
Prepared statements:
    Senator Lieberman............................................    13
    Senator Voinovich............................................    14

                                WITNESS
                         Friday, June 20, 2008

Elaine C. Duke to be Under Secretary for Management, U.S. 
  Department of Homeland Security:
    Testimony....................................................     3
    Prepared statement...........................................    15
    Biographical and professional information....................    18
    Letter from U.S. Office of Government Ethics.................    30
    Responses to pre-hearing questions...........................    31
    Responses to post-hearing questions..........................    77


                      NOMINATION OF ELAINE C. DUKE

                              ----------                              


                        WEDNESDAY, JUNE 20, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. Aloha, good 
morning, and welcome to all of you.
    Today, the Committee on Homeland Security and Governmental 
Affairs meets to consider the nomination of Elaine Duke to be 
Under Secretary for Management at the Department of Homeland 
Security (DHS).
    Ms. Duke is a native of Ohio and a graduate of Southern New 
Hampshire University, but most importantly, she received her 
M.B.A. from Chaminade University in Honolulu. So let me say 
aloha pumehana to you and congratulations, Ms. Duke, on your 
nomination.
    Ms. Duke has over 25 years of experience in Federal 
service. Most recently, she has served as Deputy Under 
Secretary for Management at the Department of Homeland 
Security, and prior to that as Chief Procurement Officer for 
the Department. I would also like to point out that she spent a 
considerable part of her career serving in Hawaii, first at 
Hickam Air Force Base and subsequently at Pearl Harbor Naval 
Shipyard. The depth of her experience is extraordinary and the 
Nation is grateful for your service.
    As you know, implementing and transforming the Department 
of Homeland Security has been on the Government Accountability 
Office's high-risk list since 2003. I believe that DHS 
represents the most serious management challenge in the Federal 
Government today. That concern, shared also by Senator 
Voinovich, is one reason why we introduced ``The Effective 
Homeland Security Management Act,'' known as S. 547, which 
would establish a Deputy Secretary of Homeland Security for 
Management with a term appointment. We have not yet succeeded 
in that important goal, but we were able to strengthen your 
management authority by designating your position as the Chief 
Management Officer for DHS.
    I want to also commend Ms. Duke and her accomplishments 
over the course of her tenure as the Department's Chief 
Procurement Officer. Already, you have made significant 
progress in integrating procurement operations across the 
Department, and equally important, you have recruited new 
acquisition workforce talent through the Acquisition 
Professional Career Program. I understand that the intern 
program is working and some of the first acquisition interns 
are attending this hearing today. I want to extend my welcome 
also to them. Just having you here makes me feel happy and 
great. I want to congratulate you on being selected for this 
challenging program and thank you for your service to this 
country. This is a program that we need to expand.
    However, I remain concerned about the Department's heavy 
reliance on outside contractors. As you know, the Department 
does not know how many contractors it currently employs or in 
what capacity. DHS still struggles to provide sufficient 
project management and oversight, particularly with large 
acquisitions, such as SBInet. I look forward to working closely 
with you to ensure DHS improves its acquisition and builds up 
its workforce, and I am glad to see that you are focused on 
that issue, as well.
    Ms. Duke, I appreciate your work to make sound management 
practices a priority at DHS. The Department has done an 
admirable job in assessing the critical skills of its workforce 
and developing succession plans for the upcoming presidential 
transition. This was not an easy task and continues to be a 
work in progress. But the Department is to be commended for the 
attention it has shown to the importance of strategic planning 
and comprehensive workforce assessment.
    In addition to the short-term transition planning, DHS has 
a long-term workforce challenge as baby boomers retire. DHS 
must attract the next generation of employees equally committed 
to the Department's mission and with the needed skills. 
Veterans preference, diversity, and collaboration with unions 
and employee organizations must be cornerstones of the 
strategy. In looking at the interns that are present here, I 
would tell you, as far as diversity is concerned, that program 
certainly is meeting the criteria. I am pleased that during 
your staff interview, you emphasized your dedication to 
diversity recruitment, and it shows. So I look forward to 
hearing more about your plans today.
    A key element of the Department's recruitment and retention 
strategy must be improving employee morale. Past Federal Human 
Capital Surveys have highlighted systemwide employee problems 
at DHS that must be addressed. As Under Secretary for 
Management, your duty is to be the voice for strategic human 
capital management and to ensure that workforce needs are met. 
I look forward to working with you in this effort.
    I am also pleased that you are willing to continue serving 
at DHS through the presidential transition. As the transition 
draws closer, continuity of leadership is increasingly 
important. Your long career of civil service will provide you 
the credibility you need through the transition, and your 
management experience will be valuable to keeping the 
Department focused on its mission. If confirmed, I would 
certainly hope that the next Administration would consider 
keeping you in your position.
    Again, I look forward to working closely with you, and as 
they say in Hawaii, my door will be open to you, to people who 
work with you, and to DHS, as well. And so I thank you very 
much, and again, congratulations. What I witness here today, 
for me, is such a great improvement and it looks good for the 
future.
    I want to thank you very much for being here, Ms. Duke. I 
would like for you, for the record, to introduce your family.

   TESTIMONY OF ELAINE C. DUKE,\1\ TO BE UNDER SECRETARY FOR 
        MANAGEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Thank you, Mr. Chairman. It is a privilege to be 
here before you as you consider my presidential nomination to 
be the next Under Secretary for Management at the Department of 
Homeland Security. I have with me here today my husband, Harold 
Hanson, and my son, Jason. My older son, Brian, is not able to 
be with us, but all three of them have been so supportive 
throughout my career and I thank them this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duke appears in the Appendix on 
page 15.
---------------------------------------------------------------------------
    I am deeply honored that President Bush has nominated me to 
serve this great country and its people in this capacity. I am 
grateful to Secretary Chertoff and Deputy Secretary Schneider 
for all the support they have given me to date.
    I would like to thank this Committee and your staff for the 
thoughtful oversight of the Department of Homeland Security and 
your great willingness to work with the Department so 
effectively in protecting our country. If confirmed, I commit 
that I will continue to work with you and your Committee, other 
government departments and agencies, businesses large and 
small, and the public to protect the homeland for present and 
future generations.
    I would also like to acknowledge and extend my appreciation 
to the management staff, many of whom are with me here today, 
and a special thank you to the first class of the DHS 
Acquisition Professional Career Program interns here today. 
They are our future, and I am very proud to serve with them.
    I consider the Under Secretary for Management a critical 
position in the Department of Homeland Security and am humbled 
that I am being considered for it. I recognize that this 
country will count on the Under Secretary for Management to 
ensure continuity of mission critical functions through the 
upcoming change of Administration. I believe that my proven 
ability to successfully lead, manage, and perform the functions 
of the Department business lines has demonstrated I have the 
skill set and experience to meet the challenges of this 
considerable responsibility. Should I be confirmed, I will 
bring my passion for good government with me to this new 
position.
    Thank you very much for this opportunity to appear here 
today, and I am happy to answer your questions, Mr. Chairman.
    Senator Akaka. Well, thank you very much, Ms. Duke. I am 
sure you know now that our Committee rules require that all 
witnesses be under oath, and therefore I ask that you stand and 
raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Duke. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the witness responded in the affirmative.
    Again, I want to welcome you here. You have filed responses 
to a biographical and financial questionnaire, answered pre-
hearing questions submitted by the Committee, and had your 
financial statements reviewed by the Office of Government 
Ethics. Without objection, this information will be made a part 
of the hearing record, with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee offices.\1\
---------------------------------------------------------------------------
    \1\ The biographical information of Ms. Duke appears in the 
Appendix on page 18.
---------------------------------------------------------------------------
    I again thank you for being here and for introducing your 
family, as well. I want to tell you that besides being happy to 
have you here, I can see that you have a lot of strong support 
with you, and certainly you know you have support from here, as 
well.
    I will begin with the standard questions to you. Is there 
anything you are aware of in your background that might present 
a conflict of interest with the duties of the office to which 
you have been nominated?
    Ms. Duke. No, Mr. Chairman.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Duke. No, sir.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted Committee of Congress if you are confirmed?
    Ms. Duke. Yes, Mr. Chairman.
    Senator Akaka. Thank you very much for your responses.
    Ms. Duke, one issue of great concern to the Oversight of 
Government Management, the Federal Workforce, and the District 
of Columbia Subcommittee that I chair is how to attract the 
next generation of Federal workers. You have demonstrated that 
already. I held a hearing in May on how to improve recruiting 
and hiring practices. Some of the concerns expressed at that 
hearing were agencies who are not taking advantage of e-
recruitment tools; agency managers are not engaged in the 
recruitment process; the hiring process takes too long; there 
is a lack of communication in the recruitment and hiring 
process; candidates cannot just submit a resume and cover 
letter to apply for a position; and agencies need to invest 
more in human resource professionals. And again, I repeat this 
came out in that hearing.
    I would appreciate it if you could give your assessment of 
these concerns and how you think DHS should meet this 
challenge.
    Ms. Duke. Yes, Mr. Chairman. I agree with you that human 
capital is our biggest challenge in management, both filling 
our existing vacancies and planning for succession in the 
future, since we do have a large portion of the Federal 
workforce retiring in the next 5 years. There are several 
approaches we need to take to this.
    One is better recruiting from the colleges, universities, 
and also Department of Defense (DOD). We have looked at mid-
career military leaving. It is a great way to not only attract 
people with wonderful experience--the non-commissioned officers 
in the military have great leadership experience--but they also 
bring to us a diverse population who are also veterans, and 
that is something we are very much expanding this year, 
including building a partnership with Defense and going over to 
Germany where they are outprocessing the military coming out of 
Afghanistan and Iraq and working on placing them right out of 
DOD.
    So we have started that, but one of the areas I want to 
work on, if confirmed, is doing it more centralized for DHS. 
Recruiting through colleges and Department of Defense is time-
intensive, and we have to make sure that as we are recruiting, 
we are recruiting for the whole Department, not just pieces of 
it, so we can draw and attract more efficiently the new college 
graduates and separating veterans.
    In terms of workforce, I believe within DHS we have a 
challenge in the Human Capital Office in terms of having the 
right number of people and the right skill set to do the human 
capital function. We have an increase in the President's budget 
for the Human Capital Office and this Committee has always been 
supportive and I would ask you for your continued support in 
that area.
    The Human Capital Office has a huge role not only in 
leading the Department in human capital, but also doing the 
staffing for the 3,000 employees at headquarters, including 
many of the senior executives in the Department, and that is an 
area we really want to make sure we have our career senior 
executives in place. As you may know, we have nearly a 20-
percent vacancy rate right now, and that is a near-term effort 
we are focusing on so that we can have those employees in place 
before the election in order to have a robust Senior Executive 
Service (SES) to help us better withstand the transition of our 
political employees.
    Senator Akaka. Thank you very much for that. I am glad you 
mentioned about veterans and the military. With that, of 
course, comes a little more maturity and experience that is 
brought to the workplace. Diversity, of course, is another 
thing that is needed.
    Ms. Duke, you previously mentioned that, if confirmed, you 
would address employee concerns, especially those identified in 
the recent DHS employee survey about communications and 
performance management. Can you explain in greater detail what 
you understand employee concerns to be and what actions you 
would take to address them?
    Ms. Duke. One of the areas in performance that we improved 
on was employees understanding their performance plans, and I 
think in large part that has to do with moving more employees 
to the system that allows them to input into their performance 
appraisals and have clear standards linked to the strategic 
plan; this is done through the ePerformance tool that is 
online. We have about 20,000 employees now on that. So they can 
go online at any time and see their performance, the input of 
their supervisors and input themselves. So we have improved on 
clarity and understanding.
    The areas that we, I will say, have the most challenge in 
is satisfaction with pay and appropriately dealing with poor 
performers. Our employees think that we don't effectively deal 
with poor performance in the workplace and we have to work on 
better distinguishing between good performers and good 
performers in rewards. The other area related to your question 
is employees thinking they have a fair rating.
    So what we are doing in this area is we did some looking at 
why this is the case and we did some focus groups with the 
leaders in DHS headquarters and found that we have some basic 
challenges in supervisors knowing how to supervise the Federal 
workforce. And so we are starting with, I will call it 
Supervision 101 training that we will have ready in about a 
month and actually making sure our supervisors know how to 
appropriately deal with good and poor performers in the 
workplace. Good performers--what type of awards and rewards are 
available for them to use so they can utilize them effectively. 
And in terms of poor performers, what actions should a 
supervisor take if an employee is either performing poorly or 
has conduct problems so that they actually do take those steps. 
That is one of the actions we are looking at, and I think that 
is going to be a good baseline.
    We have changed our senior executives' performance plans to 
focus more on being a supervisor as one of their performance 
elements, everything from managing performance to ethics in 
leadership to managing diversity, and I think that letting our 
employees know, especially our most senior executives, that 
really is one of their key objectives, not just meeting the 
mission, is going to really set the tone for our Department.
    Senator Akaka. I authored a provision in the Post-Katrina 
Emergency Management Reform Act of 2006 establishing a Homeland 
Security Rotation Program for mid-level employees. I know the 
Department issued a directive on the program last year. I 
wonder if you are aware of it and if you could comment on how 
it is working.
    Ms. Duke. It is working, but in pockets right now, and it 
is something that we really should use as a more systemic tool 
for unifying the Department. Some of the areas it is working in 
is our formal programs. Our acquisition interns here today 
rotate through three components to complete their program. They 
spent a year in each of three components. Our fellows and our 
Executive Leadership Development Program all have rotational 
assignments.
    But those are pockets of programs and not institutional. 
The way we are working on institutionalizing it is: The 
President issued an Executive Order last fall on the National 
Security Professional Program and we have identified all of our 
employees that are National Security Professionals at the mid-
grades and upper grades. We are currently developing policies 
stating that to be selected in a senior executive position that 
is a national security position, which is virtually all of our 
senior executive positions, those employees would have to have 
either rotational experience or experience in a joint program. 
And I think that way, it is going to be not just these 
specialized programs that you are selected with, but really 
making the joint and/or the multiple agency experience a 
condition to be able to effectively lead the Department.
    Where we are on that right now is we have identified the 
employees and the target positions. We have identified the 
initial training that these employees should have on the 
national security framework. And now the next step is to 
identify the types of rotational positions we should have, not 
only within the Department, but throughout the Federal 
Government.
    Senator Akaka. Diversity of the workforce is an important 
concern of mine, as I know it is with you. At the Committee's 
business meeting next week, I hope we will report out the 
Senior Executive Service Diversity Act, which I introduced to 
help ensure that the senior levels of the Federal Government 
reflect the Nation. And also, I am glad to hear what you said 
about maybe some of the revisions that may be done in the SES 
level, as well, for better management.
    Could you please elaborate on your efforts and plans to 
increase diversity at the Department?
    Ms. Duke. Our plans to increase diversity are under two 
umbrellas. One is to have a career path growth within the 
Department that is more comprehensive. When you look at our 
diversity numbers, we have much better diversity at the pay 
grades below 13. We have a little less diversity at the 14 and 
15 levels. And then we are most under-represented in several 
areas at the Senior Executive Service level. So what we have to 
do is find out how can we grow those diverse candidates that 
are in the 13 and below and make them positioned so they can be 
very competitive for the 14s, 15s, and Senior Executive 
Service.
    So that is one area we are doing. What we are doing in that 
are some of the development programs I already talked about. We 
are going to, by the end of this fiscal year, have an 
information session open to all DHS employees. So if they are 
in a career field that doesn't have much growth, we are going 
to talk to them about the career fields in DHS that have 
growth, more senior positions, have opportunities so that they 
can look at maybe--it may require them to change career fields, 
like some of our TSA Officers have changed to Border Patrol 
Agents. But it allows them to know what opportunities are in 
the Department where there is more growth and higher grade 
levels. So those are some of the initiatives we are doing to 
growth within.
    Another thing we have done recently is we have added an 
Equal Employment Opportunity representative to our ERC, which 
is our Executive Resources Committee that selects all our 
senior executives, to make sure that we have a concern for 
diversity just day to day. It is not just an initiative.
    The second area we want to work on is casting the net 
wider, if you will. We have made a concerted effort this year 
to really look at where we are recruiting, to go to areas where 
we can get more diverse candidates. We are advertising in 
newspapers and periodicals that have a larger minority 
population, going to historically black universities and other 
minority institutions so we can cast the net wider so that we 
can bring in a more diverse pool of applicants. I think that is 
the two cures to it, recruiting more broadly and then also 
making sure that we have opportunities for our diverse younger 
population to grow within the Department.
    Senator Akaka. In a hearing I held last November, I learned 
that Customs and Border Protection (CBP) officers receive as 
little as 2 weeks of on-the-job training following their 
graduation from the Federal Law Enforcement Training Center. I 
understand that CBP officers now are hired exclusively through 
the Federal Career Intern Program, which is designed to bring 
in entry-level employees in fields where a long period of 
training and development are needed. Agencies are responsible 
for providing at least 2 years of formal training under the 
program. How do you justify using the Career Intern Program to 
hire these employees?
    Ms. Duke. That is an issue that was just brought to my 
attention earlier this week. The way Border Patrol is hiring 
its Border Patrol agents right now is they usually start at the 
5 or 7 level, and then their journeyman level is an 11. So they 
are hired as 5, 7, 9, 11, which with successful performance 
they would graduate at the 11 level.
    We are now hiring them with an exam that has been 
accredited. The one piece I will work on for you and this 
Committee is making sure that while they are hired through the 
intern program and are in a development program pay grade-wise, 
that they actually are getting the aspects of an internship, 
which means on-the-job and formal training so that it really is 
an intern program, and I commit to you to continue looking at 
that and seeing if that authority is being appropriately used.
    I will say, though, that right now, with the huge hiring 
effort in Border Patrol, we are now making initial job offers 
to all applicants that do pass the exam. Now, again, that is a 
conditional job offer. They still have to go through security 
and other checks. So we are capturing the veteran and the 
diverse population. But we do have to make sure that the intern 
piece of the program is built in.
    Senator Akaka. I have been looking into ways to speed up 
the Federal hiring process and during our recent hearing I was 
really amazed at what is in the process now and why it takes so 
long to hire anyone. However, it appears that DHS may hold a 
record. It takes 6 to 8 months to hire Border Patrol agents and 
CBP officers. Why does it take so long and what do you plan to 
do to speed up the process?
    Ms. Duke. This is one of our biggest challenges, I agree 
with you, Mr. Chairman. Two pieces of the hiring process. One 
is the HR, or bringing the person through the selection 
process. The second is the security process. What we are doing 
to try to streamline the hiring process is to take advantage of 
all the flexibilities we have. We have direct hire under a few 
of the critical career fields, not as many as we would like, 
but where we do have it, we have to make sure we are taking 
advantage of it, in the intelligence area, acquisition, and 
information security specialists.
    One of the things we suffer from is, I think, because we 
are a new department, hiring should be a repeatable process. It 
should be very regular. We don't have that yet, and that is 
something we are developing. We just implemented, about 2 weeks 
ago, a process where we look at every step of the human 
resources piece of the process and target days to get people 
through the different stages of the process, and that is, I 
think, going to be key. It is a very elementary step, but it is 
going to be important to measure our human resources people 
performance against each step of the HR process.
    The second area where we have had challenges is getting 
security clearances. Every one of our employees have to go 
through clearance and suitability. In the Federal Government, 
there is reciprocity of clearances, so if somebody already has 
a clearance, we do accept it. We have not to date had any 
reciprocity of suitability, so even if someone is moving from, 
say, an employee to a contractor or a contractor to employee 
within DHS, they have to go through the suitability process 
again. That is something that we are looking at and trying 
first to build reciprocity within the Department.
    And then we are also on a Federal working group to look at 
how can we have reciprocity of suitability at least in some of 
the major career fields. There might be certain ones, like 
intelligence officers, where you might want to specifically 
look at them again. But we do have support from Charlie Allen, 
who is our Under Secretary for Intelligence and Analysis. So I 
think that the reciprocity of security clearances and 
suitability is going to really shorten that process, too.
    Senator Akaka. Ms. Duke, the Government Accountability 
Office has often commented on DHS's over-reliance on 
contractors. Secretary Chertoff testified earlier this year 
that the Department plans to convert several contractor-held 
positions to career over the next fiscal year. Can you tell us 
which positions are an especially high priority for in-sourcing 
and how many you anticipate converting?
    Ms. Duke. The biggest area we are converting--this is more 
of a problem for headquarters, the non-Gang of Seven. Within 
TSA, CBP, FEMA, those components that came into DHS, it is not 
as much of an issue. I think where the most risk is some of the 
headquarters departments, where we grew so quickly, there 
wasn't an anticipation in our budget that we would be 3,000 
people and have the mission, and so that is the biggest 
challenge.
    The area where we are converting most of the positions this 
year is the National Protection and Programs Directorate 
(NPPD). There are two areas we are looking at building. One is 
where we don't have the corporate knowledge or the subject 
matter expertise within the Department to really drive the 
mission forward. Some of the critical areas are critical 
infrastructure, cyber security. And then the second area is 
where we don't have enough Federal employees to appropriately 
manage the contracts. I would put both of those into the 
category that this Committee called inherently governmental 
services, and the NPPD has nearly 300 positions that they are 
currently filling under Federal employees rather than 
contractors.
    Some other areas we are looking at is in Intelligence and 
Analysis (I&A). We are looking at lessening our reliance on 
intelligence officers. That is a really hard area to recruit, 
but we are redoubling our efforts, and I am meeting weekly with 
Charlie Allen, the Under Secretary, to try to improve our 
efforts there. He has a hard competition because he is 
competing against CIA and FBI and some very great agencies.
    The other area we are working on is some areas in 
management. We have certain areas in security where we have our 
counterintelligence and other areas, and some of the areas in 
information technology where we want to have a little more 
robust workforce so that we make sure that we do have the core 
competencies within our Federal employees.
    So altogether, there are about 400 positions in 
headquarters that we are targeting for this year.
    Senator Akaka. Ms. Duke, as I said in my opening statement, 
one project underway at DHS continues to cause concern and that 
is the SBInet. While Congress has been informed that DHS did 
not pay anything over the $20 million cap on Project 28 (P-28), 
I remain concerned about the delivery delays and software 
problems. We have been told that work may begin soon on 
securing the Northern border under the same SBInet contract 
with Boeing.
    Given the numerous concerns over the SBInet contract and 
the significant differences between the Northern and Southern 
border, could you see a scenario in which you might want to 
issue a separate request for proposals for the Northern border?
    Ms. Duke. I think there are many pieces of securing the 
border that we will not do under the Boeing contract. We are 
not doing the fence on the Southern border. Unmanned Aerial 
Vehicles (UAVs) are going to be a large part in the current 
plan of securing the Northern border because of the threat and 
the terrain. Those are not going to be bought under the SBInet 
contract with Boeing. So there are many areas, both on the 
Southern and Northern border, that are not appropriate for the 
Boeing contract.
    Each time we have a new task, the program office is 
responsible for doing a cost-benefit analysis and looking at 
whether that specific task should be bought under the Boeing 
contract or not, so that is a requirement we have imposed and 
the program office is required to do and we are overseeing.
    In terms specifically of the P-28, the main issue on P-28 
was the Common Operating Picture (COP), the software. The 
challenges under that were driven by--I think we underestimated 
the complexity of integrating commercial elements. So going in, 
both the government and Boeing thought that we were buying 
already commercially proven technology, all we are going to do 
is integrate it, and that would be easy, and that is what the 
P-28 demonstration project did prove to be incorrect. It did 
show us that the integration piece is difficult and it is 
important.
    How we are dealing with that is we are working on building 
the pieces demonstrated in P-28 into what we call the 0.5 
version of the Common Operating Picture. That will be tested 
before it is deployed, and then the eventual delivery of a 
Common Operating Picture will be the 1.0, the fully operational 
version, meeting CBP's full operational requirements.
    One of the things we are doing as part of this process is 
we have Lincoln Laboratories, an independent federally funded 
research and development center, looking at the alternatives to 
our Common Operating Picture. So Lincoln Labs--and it is 
supposed to be done, I believe in about a month--is looking at 
not only the COP that we are developing to 0.5, but also 
looking at other alternatives of commercially available 
software or some being used proprietary in DOD and making sure 
that before we deploy to the Northern border, or more on the 
Southern border, for that matter, that we have the right 
software choice.
    So I do share your concerns, Mr. Chairman, on slowing down, 
but I also think it is important to get the COP right. That is 
the heart. That is how the Border Patrol is going to command 
and control incidents and that is a key piece of the system and 
we have to get it right, and I believe that until we have 
manageable risk on technology, we might have to, as we have 
done this fiscal year, just deal with a little bit of schedule 
slippage.
    Senator Akaka. Ms. Duke, when Deputy Secretary Paul 
Schneider was the Under Secretary for Management, he also held 
the role of Chief Acquisition Officer. If confirmed, could you 
explain how you see acquisition authorities and 
responsibilities being managed?
    Ms. Duke. Yes. If confirmed, I would be the Department's 
Chief Acquisition Officer. One of the biggest initiatives I 
started when I was the Chief Procurement Officer and would 
really drive as the Chief Acquisition Officer is to make sure 
that we are managing acquisition as a system. When the 
Department was set up, the Chief Procurement Officer had 
authority over procurement, which is really just the business 
piece. If you flow-chart out the acquisition process, awarding 
the contract is at the tail end of a process that could be 
years, and that is what the Under Secretary of Management 
through the Chief Procurement Officer had authority for.
    What we have done is we have grown that functional 
authority to the entire acquisition process, and what I mean by 
that is not just the business deal, the contract piece, but 
program management, test and evaluation, systems engineering, 
all the elements that really make a good program. This 
Committee has recognized that one of our major problems in 
acquisition is good requirements. We need those good 
requirements up front out of the Program Office. You can't 
build those in at the end of the process in a contract.
    What I would do as the Chief Acquisition Officer, if 
confirmed, is continue to build that authority. We have gone 
out and asked each component to have a single point of contact 
that would be the accountable person for acquisition in each of 
the components that has major programs. So I think that would 
take the Chief Acquisition Officer of the Department and give 
that person accountable contacts within each of the major 
components to make the focus.
    The other big area that I think is going to drive 
acquisition improvements is our focus on program managers, 
making sure that they are certified and making sure that they 
have managed the program cost schedule and performance as their 
performance evaluation criteria.
    Senator Akaka. When GAO reported to Congress on its high-
risk list last year, it said this about DHS, ``DHS has not 
linked its goals to resource requirements in its strategic plan 
and does not involve all stakeholders in its strategic planning 
process. Moreover, DHS lacks not only a comprehensive strategy 
with overall goals and a time line, but also a dedicated 
management integration team to support its management 
integration efforts.''
    Could you comment on what steps the Department has taken to 
address these issues raised by GAO and what more needs to be 
done to correct this problem?
    Ms. Duke. Well, we have developed corrective action plans 
for each of the areas in the GAO report, and each of those 
corrective action plans is focused on the area, the flood 
program, those type of things, and those corrective action 
plans do have milestones and deliverables required to drive the 
program off the high-risk list.
    The other thing we are doing in terms of the strategic plan 
is the Department has decided--the strategic plan is managed by 
Assistant Secretary Stew Baker. We have met with Deputy 
Secretary Schneider and we are going to put the performance 
objectives in the strategic plan as recommended by GAO. You may 
know that we did have a strategic plan that we sent to OMB and 
it was rejected because it did not have the goals, just like 
GAO said. So we are in the process of putting the goals in the 
strategic plan. We are meeting with all the stakeholders. We 
have three of the five goals done, and we would expect to have 
that plan very soon. It will definitely be this summer.
    Senator Akaka. Well, I really thank you for your responses. 
There are no further questions at this time, Ms. Duke, but 
there may be additional questions for the record which we will 
submit to you in writing. The hearing record will remain open 
until the close of business today for Members of this Committee 
to submit additional statements or questions. Your full 
statement will also be included in the record.
    I know you are anxious for your nomination to move forward. 
It is my hope that the Committee will vote on it in the near 
future and that your nomination will be considered 
expeditiously in the full Senate. I want to tell you that I 
will do all I can to bring that about as soon as we can. I look 
upon your nomination as one that we need.
    I thank you so much for your responses. Your responses show 
your experience and that you understand the problems that we 
need to work on and that we need to work on those problems 
together and as quickly as we can, because DHS, as you know, is 
a huge Department. It has the critical mission of protecting 
the security of our country, so we need to work on it as 
quickly as possible.
    Again, I want to thank you. It is good to meet your family 
and your interns here, as well as others who are supporting you 
in your position. So thank you again.
    Ms. Duke. Thank you, Mr. Chairman.
    Senator Akaka. Aloha and best wishes. This hearing is 
adjourned.
    [Whereupon, at 10:53 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN
    I am pleased to support Elaine Duke's nomination as Under Secretary 
for Management at the Department of Homeland Security and I also want 
to take this opportunity to commend her for her more than quarter of a 
century in public service.
    Thomas Jefferson once said that: ``A nation that rests on the will 
of the people must also depend on individuals to support its 
institutions in whatever ways are appropriate if it is to flourish. 
Persons qualified for public office should feel some obligation to make 
that contribution.''
    Ms. Duke has chosen to make that contribution in one of the most 
underappreciated but, in the end, vitally important areas of government 
service--contracting and procurement--making sure the taxpayers are 
getting their money's worth for each from every dollar of government 
spending.
    Until joining DHS, Ms. Duke's career spanned the breadth of 
government and the width of our nation--from Charleston, S.C., to 
Hawaii to Washington with stints in the Air Force, the Navy, the 
Railroad Administration and the Smithsonian Institute.
    At DHS, Ms. Duke has been part of the team charged with the 
daunting mission of merging 22 separate federal agencies with different 
missions, procedures and cultures into one effective agency dedicated 
to preparation and response to disasters whether natural or at the 
hands of our terrorist enemies.
    Of course there have been problems.
    Some of the Department's largest acquisition programs--Deepwater, 
SBInet, and radiation detection portal monitors--have also been the 
most troubled and need better leadership.
    Also, the Department's heavy reliance on contractors to perform 
basic services raises serious questions about whether DHS is building 
sufficient internal capacity and institutional knowledge. DHS still has 
insufficient capacity to develop requirements and evaluate the 
technical feasibility of contractors' proposals.
    In addition, the remainder of this year the Department must take 
great care to ensure that it is prepared for the transition to a new 
Administration--the first time DHS will have been faced with this 
challenge. Historically, terrorists have viewed governmental 
transitions as a time of vulnerability, and I know Ms. Duke and other 
leaders in the Department are working hard to make sure that a smooth 
transition occurs.
    I look forward to working with Ms. Duke on these and other issues 
going forward.
    Ms. Duke herself spoke of the enormity of the task DHS faces in an 
interview where she said: ``The geographic footprint [of DHS] is 
worldwide. We have about 208,000 employees, and the budget for Fiscal 
Year 2007 was $42.8 billion. The organizational structure is made up of 
a headquarters with both the traditional headquarters activities and 
four distinct directorates with operational focus. That's the National 
Preparedness Directorate, Science and Technology, the Under Secretary 
of Management, and FEMA [Federal Emergency Management Agency]. We also 
have six operational components: the Transportation Security 
Administration (TSA), Customs and Border Protection, U.S. Secret 
Service, U.S. Customs and Immigration Service, Immigrations and Customs 
Enforcement, and the United States Coast Guard.''
    She went on to say: ``I think that the focus is on how you bring 
people together, how you stay focused on a solution, how you cut 
through obstacles and know when enough talking is enough and when it's 
time to make a decision.''
    Our Nation is lucky to have women and men of Ms. Duke's dedication 
who are ready to answer Jefferson's centuries old call to duty and use 
her talents to make her special contribution.
                               __________
                PREPARED STATEMENT OF SENATOR VOINOVICH
    Mr. Chairman and Ranking Member Collins, I commend you both for 
convening today's hearing to consider the nomination of Elaine Duke to 
be the Department of Homeland Security's (DHS) Under Secretary for 
Management.
    A strong Under Secretary for Management at DHS is imperative 
because the Homeland Security Act of 2002 combined 22 agencies and 
180,000 employees into a new entity. This effort amounted to the 
federal government's largest restructuring since the creation of the 
Department of Defense in 1947. In 2003, the Government Accountability 
Office (GAO) noted issues with this restructuring, and while progress 
has been made, implementing and transforming DHS remains on GAO's 2007 
high-risk list of programs susceptible to waste, fraud, abuse, and 
mismanagement.
    As the former Chairman and now Ranking Member of this Committee's 
Oversight of Government Management Subcommittee, I take GAO's concerns 
seriously and am committed to ensuring that the Department of Homeland 
Security has the proper management structure. That is why last year I 
included language in the Implementing Recommendations of the 9/11 
Commission Act of 2007 that clarifies that the Under Secretary for 
Management is the Chief Management Officer and principal advisor to the 
Secretary on the management of DHS and has responsibility for DHS's 
strategic management and annual performance planning, the 
identification and tracking of performance measures, and the 
integration and transformation process in support of homeland security 
operations and programs. The Implementing Recommendations of the 9/11 
Commission Act of 2007 also sets qualification standards for the Under 
Secretary of Management, requiring that the nominee have extensive 
management experience, leadership skills, a demonstrated ability to 
manage and a proven record.
    I believe Elaine Duke has these qualifications, and I am pleased to 
support her nomination as Under Secretary for Management of DHS. Ms. 
Duke, who grew up in my home state of Ohio, has been with DHS since its 
creation in 2002 and has served in various leadership roles including 
as the Department's Chief Procurement Officer and Deputy Under 
Secretary for Management. I believe this prior service has equipped her 
with the skill set necessary to serve as DHS's Under Secretary for 
Management.
    As we consider this nomination for DHS's first Under Secretary for 
Management, I think it is an opportune time to raise two ways that I 
think we can continue to improve DHS's management structure.
    First, I remain convinced that the Under Secretary for Management 
should serve a fixed five year term. Such a term would provide 
management continuity at DHS during times of leadership transition. The 
need for such continuity is clearly apparent today because we are only 
six months away from the largest leadership transition DHS has ever 
faced, when a new President will appoint entirely new leadership. As 
that new leadership is vetted and confirmed, I think it is of the 
utmost importance that management with institutional knowledge remains 
in place at DHS to oversee the Department's expenditure of funds, 
procurement activities and human resources.
    Second, I remain concerned about the management of DHS's 
procurement programs. In 2005, the DHS's Office of Inspector General 
(OIG) noted vulnerabilities with DHS's procurement management. The OIG 
pointed out that DHS has a Chief Procurement Officer as well as seven 
procurement offices that were transferred to DHS with their legacy 
agencies. I question whether maintaining multiple procurement offices 
in a Department that purchases billions of dollars worth of goods and 
services each year is the best and wisest way to manage our resources 
and oversee procurement activities.
    Mr. Chairman, in announcing GAO's 2007 high-risk list, Comptroller 
General Walker stated an ``array of management and programmatic 
challenges continues to limit DHS's ability to carry out its roles 
under the National Homeland Security Strategy in an effective risk-
based way.'' I believe Elaine Duke's nomination is an important step 
towards addressing the management and programmatic challenges DHS 
continues to face, and I am proud to support her nomination today. 
Thank you for calling today's hearing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
